                     Office of Inspector General
                    Corporation for National and
                             Community Service




    Semiannual Report
      to Congress
October 1, 2009 - March 31, 2010
     Fiscal Year 2010 Semiannual Report No. 1




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
        Telephone (202) 606-9390
        Facsimile (202) 606-9397
          Hotline (800) 452-8210
       Website: www.cncsoig.gov
                                                                                                Table Of Contents


A Message From Acting Inspector General Kenneth Bach.................................. 1

Audit Section............................................................................................................ 3
      Audit Results........................................................................................................................... 5
      Significant Issues ................................................................................................................... 5
      Proposed Management Decisions With Which The OIG Disagreed ..................................... 6
      Peer Review............................................................................................................................. 7

Investigations Section............................................................................................. 9
      Investigative Results ............................................................................................................ 11
      Significant Cases And Activity............................................................................................. 11

Review Of Legislation And Regulations .............................................................. 15
      Rulemaking to Implement the Serve America Act ............................................................... 17
      Corporation Policy Council .................................................................................................. 17

Statistical And Summary Tables .......................................................................... 19
      I.      Inspector General Act Reporting Requirements ........................................................ 21
      II.     Audit Reports Issued ................................................................................................... 22
      III.    Reports With Questioned Costs.................................................................................. 23
      IV.     Reports With Recommendations That Funds Be Put To Better Use ......................... 24
      V.      Summary of Audits With Overdue Management Decisions ....................................... 25
      VI.     Reports Described In Prior Semiannual Reports Without Final Action..................... 26


                             About The Office Of Inspector General
In 1993, Congress created the Corporation for National and Community Service (Corporation), along
with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
U.S.C. §§ 12501-681). Independent of the agency we oversee, and led by a presidential appointee,
the OIG conducts audits and investigations of Corporation programs, including AmeriCorps,
Volunteers In Service to America (VISTA), the National Civilian Community Corps, Learn and Serve
America, and Senior Corps. The OIG also examines Corporation operations, and State community
service programs that receive and distribute the majority of Corporation grant funds. Based on the
results of our work, and in addition to its audit reports and criminal and civil referrals based on our
investigations, the OIG recommends to the Corporation policies to promote economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
six months of Fiscal Year (FY) 2010. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.
                                                 Inspector General’s Message


                 A Message From Acting Inspector
                           General Kenneth Bach
April 30, 2010

I am pleased to share with you our Semiannual Report to
Congress, which details the achievements of the Office of
Inspector General (OIG) for the period October 1, 2009,
through March 31, 2010. During this reporting period, the
OIG launched a major oversight effort of the American
Recovery and Reinvestment Act (ARRA) grants made by the
Corporation for National and Community Service
(Corporation) and realigned its resources and strategic plan
to respond to a major expansion of Corporation programs
under the terms of the Edward M. Kennedy Serve America
Act of 2009.

Our Audit Section issued eight reports, resulting in more
than $237,000 of questioned costs, the identification of more
than $96,000 in funds that could be put to better use and
numerous recommendations for improvement in Corporation
and grantee operations, policies and programs.

Our Investigations Section opened 22 new cases and closed
22 actions, including 13 cases with significant findings,
resulting in the recovery of more than $116,000 in taxpayer
dollars and the potential recovery of more than $2.5 million
for reinvestment in national service.

We began our joint investigative-audit ARRA effort by performing a risk assessment of the hundreds
of Corporation grantees that received stimulus funds to expand their existing AmeriCorps and
Volunteers In Service to America (VISTA) programs. ARRA allocated $200 million to the Corporation
to create 10,000 additional AmeriCorps positions and to increase the ranks of VISTA by 3,000
members. Under the Act, the OIG received $1 million to finance its ARRA oversight until 2012.

After compiling a list of higher-risk grantees, we conducted more than 30 grantee site visits, during
which our investigative staff presented Fraud Awareness Briefings, reviewed grantee operations and
records, and met with officials and volunteers. Concurrently, our auditors commenced an ARRA
grantee accounting system audit of 22 of the higher-risk grantees. The objective of these audits is to
assess the capability of these grantees to comply with ARRA accountability requirements and to
ensure that:

1. Recipients of funds and uses of all funds are transparent
2. Reporting of the public benefit of ARRA funds is clear, accurate, and timely
3. Funds are used for authorized purposes and internal controls are in place to mitigate fraud, waste,
error and abuse
4. Controls are in place to avoid unnecessary delays and cost overruns

As part of our ARRA work, we also began a comprehensive audit of VISTA, a major program and one
of the oldest of the Corporation’s anti-poverty initiatives. Our VISTA audit will be an ongoing effort,
targeting select procedures and policies in smaller manageable phases. Audit reports will be issued
as we complete each phase. Our VISTA audit is part an ongoing OIG shift from reviews of individual
external grantees to projects and policies that address the core operations and functions of the


October 1, 2009 – March 31, 2010                                                                 1
Inspector General’s Message

 Corporation. I feel these performance- and procedure-based reviews will have a more global impact
 in our shared mission to prevent and deter fraud, waste, and abuse of taxpayer dollars invested in
 national service.

 Our audits of the Corporation’s 2009 Financial Statements and the National Service Trust (the source
 of funds for education awards) resulted in clean opinions and our Federal Information Security
 Management Act (FISMA) Review of the Corporation’s information technology systems found
 continued improvement, especially in the area of employee security awareness training.

 The advent of the Edward M. Kennedy Serve America Act, which will result in considerable expansion
 of Corporation programs in the years ahead, as well as a number of new volunteer initiatives, makes
 it incumbent on the OIG to fully understand the implications of the Act and realign its resources to
 meet the challenge of oversight. We are closely monitoring the Corporation’s rulemaking as it relates
 to the Serve America Act and are active participants in the Corporation Policy Council, offering
 recommendations on all new and amended policies with the primary goal of enhancing and protecting
 our joint ability to detect and prevent fraud, waste and abuse.

 During this period we updated our strategic plan for the period 2010-2015 to align it with our new and
 expanded responsibilities. We worked with the Corporation and the Office of Personnel Management
 to redesign a new performance-based evaluation system for OIG employees. This new evaluation
 system will now align each employee’s work plan with our new strategic plan.

 I have requested an organizational review of the OIG to assist us in planning for the future. I want to
 ensure the OIG will have the right number of professionals with the right skills to meet our new
 challenges. The project includes extensive interviews of OIG staff, as well as our Corporation
 customers and other stakeholders and will include short-, medium- and long-term recommendations.

 Given our advanced planning and our ability to react to the fast-changing challenges to our oversight
 efforts, I am confident that the OIG is well positioned to protect and support the Corporation, its
 grantees and volunteers, and the millions of Americans who benefit from national service.




 Kenneth Bach
 Acting Inspector General




 2                                                           October 1, 2009 – March 31, 2010
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




October 1, 2009 – March 31, 2010                                        3
                                                                                Audit Section


 Audit Results
 During this reporting period, the OIG Audit Section issued eight reports. Of special note is the fact
 that our audits of the Corporation’s Fiscal Year 2009 Financial Statements and National Service Trust
 Schedules resulted in clean opinions and no material weaknesses.

 There was also good news on the information technology front in our FY 2009 Federal Information
 Security Management Act (FISMA) Independent Evaluation of the Corporation’s systems. We found
 that the Corporation has taken significant steps to enhance its information security program and
 address issues identified in the prior FISMA report. Our FY 2009 FISMA report specified two
 recommendations for improvement:

 1. Information system owners should continue to develop and update the system security plans in
 accordance with guidance provided by the National Institute for Standards in Technology and

 2. Corporation system owners, with assistance from the Privacy Officer, should continue the
 development of Privacy Impact Assessments in accordance with OMB M-03-22, and as required by
 the Privacy Policy and Certification and Accreditation procedures.

 The five grantee audit reports issued during this period questioned more than $237,000 in claimed
 costs and recommended that more than $96,000 in funds be put to better use. There were 16 audits
 in process at the end of this reporting period.

 The OIG Audit and Investigations Sections devoted considerable resources to outreach efforts within
 the non-profit community, with a special emphasis on grantees receiving funding for additional
 AmeriCorps and VISTA member slots under the American Recovery and Reinvestment Act (ARRA).
 Our objectives were to present information to encourage the development of systems to prevent
 fraud, waste and abuse to the large non-profits, some of which may be subject to our audits in the
 future. OIG Representatives attended Corporation grantee conferences in Crystal City, VA, Dallas
 and New Orleans. Through these interactions with the non-profit community, we sought to inform key
 groups on common audit and investigative findings, internal controls issues, and preparation for
 audits. We also addressed risk factors of which grantees should be aware and shared lessons
 learned during audits and investigations. Our staff answered questions and provided brochures and
 other educational materials.


Significant Issues
 Report 10-08 - Agreed-Upon Procedures for Corporation Grants Awarded to the University of
 San Francisco - School of Education (USF)

 The OIG questioned claimed Federal-share costs of $192,972, plus education awards and accrued
 interest payments related to members’ service under the terms of the grant, but funded outside of the
 grant of $33,759 and $3,593, respectively. Auditors noted that the grantee lacked effective
 procedures to monitor and evaluate its collaborative partners’ performance, and failed to perform
 monitoring site visits in accordance with the grantee's Partner Policy Manual.

 The questioned Federal-share costs relate to the lack of grantee receipts for Mini-grants. USF’s Mini-
 grant program provided funding for approximately 200 projects in which AmeriCorps members
 applied for grant funds, ranging from $300 to $1,000, to use for supplies and materials for their
 projects. Upon completion of each project, USF required members to submit a final report that
 showed the project’s achievements or outcomes. However, USF did not enforce its procedures for
 the recipients to submit the receipts to USF for Federal costs on their projects. Therefore, while there
 is evidence that the projects were completed, there is no assurance that the Mini-grant funds were
 spent as intended.


 October 1, 2009 – March 31, 2010                                                                  5
Audit Section

 Audit Report 09–12 - Agreed-Upon Procedures of Grants Awarded to Volunteer New
 Hampshire

 The OIG received the Corporation’s Final Management Decision on our grant audit of Volunteer New
 Hampshire. The auditors questioned $234.809 as unallowable grant costs, a $1,374 education
 award, and also found numerous and pervasive instances of noncompliance with provisions of
 Federal laws, regulations and grant award provisions. The problems cited included lack of controls
 over recording and reporting Federal-share costs, late submissions to the Corporation of financial and
 progress reports, and lack of procedures and controls to ensure service hours were recorded properly
 and documentation was maintained. The Corporation concurred with all of our recommendations and
 disallowed $198,760 in questioned grant costs and the entire cost of the questioned education award.


Proposed Management Decisions With Which The OIG Disagreed
 The OIG did not entirely concur with the Corporation’s Proposed Management Decisions (PMDs) for
 the following engagements:

 •OIG Report No. 09-12, Agreed-Upon Procedures for Corporation for National and Community
 Service Grants Awarded to Volunteer New Hampshire

 •OIG Report No. 09-13, Agreed-Upon Procedures of Corporation for National and Community Service
 Grants Awarded to the Civic Ventures

 Disagreements involved the following two issues:

 End of Term Evaluation

 The OIG questioned the costs associated with AmeriCorps members’ second terms of service, citing
 that the members were ineligible due to the lack of a mandatory evaluation that was to have been
 completed by the grantees at the end of the members’ first term of service. The Corporation
 disagreed, stating that the member exit forms submitted to the Corporation by the grantees sufficed
 as formal notification that the members had successfully completed the first term. We find this
 position to be contrary to Corporation regulations, which require an end-of-term evaluation, and
 mandate that this evaluation be used as the primary assessment tool for determining a member’s
 eligibility for a second term of service. The OIG believes that evidence of the mere completion of the
 first term, which is all that the exit form indicates, is not sufficient to document that a member’s
 service performance is deserving of approval for a second term.

 Budget Changes

 For OIG Report No. 09-12, Agreed-Upon Procedures for Corporation for National and Community
 Service Grants Awarded to Volunteer New Hampshire, the OIG disagreed with the Corporation’s
 PMD, which allowed costs in the amount of $36,049 that were transferred from one budget section to
 another without obtaining required approval from the Corporation. The grantee claimed it had
 requested prior approval for the action, but we found no evidence the Corporation responded to the
 request. We also did not find documentation of the grantee’s request. Prior approval is required for
 the budget change under AmeriCorps Special Provisions, Section IV. M. Budget and Programmatic
 Changes, 3. Budget Changes a. Reallocation of Funds From the “Member Support Cost.




 6                                                           October 1, 2009 – March 31, 2010
                                                                              Audit Section


Peer Review

 During this period, the OIG Audit Section underwent a peer review that was conducted by the staff of
 the United States Nuclear Regulatory Commission, OIG. The peer review report, issued March 19,
 2010, stated “In our opinion, the system of quality control for the audit organization of CNCS OIG in
 effect for the year ended September 30, 2009, has been suitably designed and complied with to
 provide CNCS OIG with reasonable assurance of performing and reporting and conforming with
 professional standards in all material aspects. Federal audit organizations can receive a rating of
 pass, pass with deficiencies, or fail. CNCS OIG has received a peer review rating of “pass.”




 October 1, 2009 – March 31, 2010                                                               7
                                   Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activity involving
                   the Corporation’s employees, contractors, and grant
                   recipients. Criminal investigations are presented to the
                   U.S. Attorney or, in some cases, the local prosecutor for
                   criminal prosecution and monetary recovery, where the
                   facts uncovered so warrant. Some investigative reports
                   are referred to Corporation management for its
                   administrative action.




October 1, 2009 – March 31, 2010                                         9
                                                                Investigations Section


Investigative Results
 During this reporting period, the OIG Investigations Section opened 22 new cases and closed 22
 cases, including 13 matters with significant findings. Our efforts resulted in the recovery of more than
 $116,000 in taxpayer funds and the potential recovery of more than $2.5 million from persons and
 programs found to have engaged in fraud, waste, or abuse of Corporation resources.

 Our investigations also resulted in two individuals awaiting sentencing after pleading guilty to
 misusing Federal Program funds and five other matters that are pending legal action.

 Proactive prevention is the objective of our Fraud Awareness Briefings (FABs). During this reporting
 period, OIG investigators fanned out across the country on site visits to present FABs to Corporation
 grantees that had received funds under ARRA. Besides presenting multimedia training presentations
 to Corporation employees, program officials and members, we also met with program officials and
 participants. Our goal was to assist Corporation management in determining if grantees were
 adhering to their goals and objectives, and also to give grantees the opportunity to give feedback on
 how effectively Corporation management was supporting their programs.

 The Investigations Section partnered with the Audit Section to jointly develop a risk assessment plan
 and then reviewed all grantees receiving ARRA funding. We then prioritized proactive reviews of the
 higher-risk grantees. During this period, we conducted site visits to more than 30 grantees in 14
 states and provided FABs for the staff and AmeriCorps members.

 We also conducted a limited review of ARRA AmeriCorps member timesheets and conducted
 interviews of members to determine if they were providing service consistent with grant provisions. In
 those instances where we identified weaknesses or AmeriCorps members whose service was
 questionable, we worked with the grantees to make on-the-spot corrections.

 Consisting of an Assistant Inspector General for Investigations, six agents with full Federal Law
 Enforcement Authority and an investigative assistant, the Investigations Section met the challenge of
 pursuing wrongdoers in Corporation operations that include hundreds of grantees and subgrantees in
 all 50 states and U.S. territories. We were assisted in our work by 41 calls, letters and e-mails to our
 Fraud Hotline and by referrals from Corporation managers, employees and program participants.


Significant Cases And Activity
 Corporation Internal Investigations

 During this reporting period, we conducted three investigations involving Corporation employees.

 In one investigation, we determined that a Corporation National Service Trust Officer had instructed
 a former AmeriCorps member and a college official to submit fraudulent education award vouchers to
 the Corporation for payment by backdating the documents. The former AmeriCorps member’s
 education award had expired. By backdating the vouchers, the former member was able to collect
 more than $5,000 in expired education award benefits to which the member was no longer entitled.
 Our investigation also determined that a Corporation supervisor provided a false sworn statement
 when questioned by our investigators. We further determined that another Corporation employee had
 failed to report the fraud to his supervisor, or our office, when he learned the Corporation employee
 had been engaged in criminal misconduct. Corporation management took administrative action
 against the individuals.

 In another investigation, we determined that, during a conference call on volunteer outreach
 strategies hosted by the Corporation in concert with the National Endowment for the Arts, the
 participants became sidetracked and had conversations that purportedly solicited members of the arts


 October 1, 2009 – March 31, 2010                                                                 11
Investigations Section

 community to engage in grassroots lobbying efforts. Our review of transcripts of that call and other
 documents, and interviews of participants, revealed no indication that Corporation employees had
 attempted to further any goals other than those linked to the Corporation’s mission of supporting
 service and volunteerism. However, our investigation identified that Corporation management failed
 to provide adequate supervision to temporarily assigned employees for special projects such as the
 conference call. Further, the Corporation did not have any policies to guide or assist staff with
 oversight of special project temporary employees. We recommended that the Corporation strengthen
 its supervision of temporary employees and establish administrative policies and procedures. The
 Corporation agreed with our recommendations and has since implemented policies and procedures
 to correct this matter.

 A third investigation determined that a Corporation supervisor had violated Corporation Travel Policy
 and the Federal Travel Regulation when the supervisor authorized the reimbursement of local travel
 expenses for a Corporation employee totaling $16,975. The investigation found that the employee
 submitted travel vouchers to cover expenses while commuting approximately three days a week from
 his Virginia residence to Washington, DC, the employee’s designated official duty station. The
 employee was therefore not entitled to travel reimbursement. The Corporation has established a debt
 owed by the employee to recoup the funds and has provided training to the supervisor on travel
 issues.

 Proactive Review of Corporation’s Potential Debt Oversight

 We completed an analysis of five final audits and two investigations, completed over the past three
 years. In each matter, we questioned the education awards of AmeriCorps members. The
 Corporation, in its Final Management Decisions, stated that, because the questioned education
 awards had not been accessed or used by the members, it would place those education awards in a
 potential debt status. The Corporation further stated that if the AmeriCorps members later accessed
 the questioned education awards, the Corporation would issue a demand letter to the grantee to
 repay the amount of the award accessed by the AmeriCorps members. Our review found that the
 Corporation did not have a policy in place to systematically monitor the potential debt and that the
 status of the questioned education awards had not been checked. The results of our analysis were
 provided to the Corporation, which has taken steps to recoup $39,141 from grantees for questioned
 education awards that were accessed by AmeriCorps members. The Corporation has also developed
 a plan to monitor another $85,856 in potential debt until the remaining questioned education awards
 expire.

 Significant Cases

 A director of a Texas AmeriCorps program misused more than $950,576 in program funds over a
 three-year period. During our review of the program’s financial records and through interviews, we
 determined that program officials were not able to account for, nor could they provide a logical
 explanation as to the whereabouts of, the funds in question. We further determined that the director
 submitted fraudulent Financial Status Reports to the Corporation that allowed him to continue to
 receive Federal funds. Our investigation has been referred to the U.S. Attorney’s Office for
 prosecutorial consideration.

 A VISTA program supervisor in Puerto Rico wrongfully enrolled 11 college students as VISTA
 members while they were enrolled in a university. The members continued to attend classes after
 they were enrolled as VISTA members, a violation of the current VISTA regulations that require full-
 time service from VISTA members and strictly limit college studies during terms of service. The
 supervisor further instructed the VISTA members to not disclose to Corporation program officers they
 were enrolled in college classes to further conceal the criminal activity. This investigation was referred
 to and accepted by the U.S. Attorney’s Office for prosecution.




 12                                                            October 1, 2009 – March 31, 2010
                                                                      Investigations Section

                                         Summary Of Cases
      Op ened and Closed
      Cases Open at Beginning of Reporting Period                                              33

      New Cases Opened                                                                         22

      Cases Closed this Period W ith Significant Findings                                      13

      Cases Closed this Period W ith No Significant Findings                                   9

      Total Cases Closed                                                                       22

      Cases Open at End of Reporting Period                                                    33

      Referred*
      Cases Referred for Prosecution                                                           3

      Cases Accepted for Prosecution                                                           1

      Cases Decl ined for Prosec ution                                                         2

      Cases Pending Prosecutorial R eview                                                      1

      Cases Pending Adjudication                                                               7

      Recommendations to Management
      Investigative R ecomm endations R eferred to Management                                  9

      Investigative R ecomm endations Pendi ng this Reporting Period                           2


      Investigative R ecomm endations Pendi ng from Previous Reporting Periods                 1

      * This includes cases referred for prosecution during the previ ous reporti ng period.




October 1, 2009 – March 31, 2010                                                                    13
                            Review Of Legislation And
                                         Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The Office of Inspector
                   General reviews legislation and regulations to determine
                   their impact on the economy and efficiency of the
                   Corporation’s administration of its programs and
                   operations.        It   also    reviews    and    makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud and abuse in Corporation programs and
                   operations. The Office of Inspector General draws on
                   its experience in audits and investigations as the basis
                   for its recommendations.




October 1, 2009 – March 31, 2010                                       15
                                 Review Of Legislation And Regulations


Rulemaking to Implement the Serve America Act

 In April 2009, Congress passed and the President signed into law the Edward M. Kennedy Serve
 America Act. In addition to reauthorizing the Corporation’s programs and activities, the Act amended
 and added certain sections to the Corporation’s governing statutes in the National and Community
 Service Act of 1993 and the Domestic Volunteer Service Act of 1973.

 To implement certain time-sensitive changes brought about by the Serve America Act, the
 Corporation published final rules in the Federal Register in September 2009 that amended and added
 to existing Corporation regulations concerning the AmeriCorps State/National, Senior Corps, and
 Learn and Serve programs. We discussed many of the changes in our prior Semiannual Report.

 During this reporting period, the Corporation continued the process of implementing the new law, and
 issued further changes to its regulations, this time in draft form and for public comment, in the Federal
 Register on February 23, 2010.           The changes proposed by the Corporation include the
 implementation of two new education awards: a $1,000 Silver Scholarship education award for
 seniors 55 and older who complete 350 hours of service, and a $500 Summer of Service education
 award for school-age youth who complete 100 hours of service during the summer months.
 Other key changes in education awards include:

 -Increasing the amount of an education award earned for full-time term of AmeriCorps service from
 the static amount of $4,725, set forth in the original 1993 statute, to an amount fixed to the annual
 Federal Pell Grant award, currently set at $5,350.

 - Allowing AmeriCorps State and National, and Silver Scholarship participants who are 55 or older to
 transfer an education award from the participant who earned the award to the participant’s child,
 grandchild or foster child.

 - Holding grantees financially responsible for improperly granted education awards caused by their
 incorrect or erroneous certification that a participant had completed their term of service.

 - Limiting the number of a participant’s terms of service in which they could earn education awards to
 no more than the aggregate amount of two full-time awards.

 Comments on the proposed draft regulatory changes are due to the Corporation by April 26, 2010.
 The OIG continues to study the draft rules and intends to offer several suggested changes and
 clarifications by the due date.


Corporation Policy Council
 The OIG continued its active participation in the Corporation’s Policy Council, which is charged with
 developing and amending internal polices covering all operations. The OIG reviews new policies and
 changes and makes recommendations to Corporation management.

 During this reporting period, we commented on several proposed Corporation policies. Of note, was
 a proposed VISTA policy, the purpose of which was to permit VISTA volunteers to have greater ability
 to enroll in educational coursework while serving. Currently, the Corporation permits VISTAs to enroll
 in “one educational course directly related to your project assignment and/or part of your career
 development plan,” according to the VISTA Member Handbook. Members are also currently
 permitted to “be enrolled in an institution of higher education for the minimum number of hours
 required to maintain eligibility for a partial Federal Pell Grant.” The proposed new policy would lift the
 one-course limitation and the requirement that the courses be related to the VISTA member’s



 October 1, 2009 – March 31, 2010                                                                  17
                               Review Of Legislation And Regulations

assignment or career development. It would also permit enrollment in courses from unaccredited
institutions.

The OIG objected to the proposed policy as permitting an encroachment on a VISTA member’s term
of service to the government and as inconsistent with the statutory instruction in the Domestic
Volunteer Service Act of 1973 that VISTA “volunteers serving under this part shall be required to
make a full-time personal commitment to combating poverty and poverty-related problems.” The
Corporation believes that loosening the current requirements on educational coursework is consistent
with language in the statute that qualifies a VISTA member’s full-time personal commitment to their
service as being to “to the maximum extent practical.”

The OIG then suggested refinements to the proposed policy, including:
-Requiring that the understanding of the type and amount of coursework taken by the VISTA
members be documented in a written agreement between the project and the member before the
member enrolls in the course;
- Maintaining the requirement that VISTAs be permitted to enroll only in accredited institutions; and
-Stating that the Corporation is not liable for any educational costs caused by the Corporation
requiring the VISTA to withdraw from the course based on interference with VISTA program
assignments.

The Corporation agreed to add language to the policy that the Corporation not be liable for a forced
course withdrawal, but maintained that only a discussion, not a written agreement, between the
VISTA and project should be required before enrollment, and that it will not limit a VISTA’s
coursework to accredited institutions. The proposed policy is in final form and awaits approval by the
Corporation’s Chief Executive Officer.




18                                                          October 1, 2009 – March 31, 2010
                                             Statistical And
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




October 1, 2009 – March 31, 2010                                    19
                                                                                        Tables

I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                15

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses
                   and deficiencies found in the administration of Corporation       Throughout
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         26
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        13

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of      22
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      23
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      24
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        25
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspec tor            6
                   General disagrees




 October 1, 2009 – March 31, 2010                                                             21
Tables

II.        Audit Reports Issued

                                                Audit Reports Issued
                                           October 1, 2009 – March 31, 2010
      Report                                                             Dollars        Dollars      Funds Put to
               Issue Date                  Report Name
      Number                                                           Questioned Unsupported Better Use
                                                                                 (Dollars in thousands)

       10-01    11/13/09    Audit of the Corporation for National and        0             0              0
                            Community Service's Fiscal Year 2009
                            Financial Statements
       10-02    11/13/09    Audit of the Corporation for National and        0             0              0
                            Community Service's National Service
                            Trust Schedule of Fiscal Year 2009
                            Budgetary Resources and Obligations
       10-03    02/05/10    Federal Information System Management            0             0              0
                            Act FISMA
       10-05    10/23/09    Agreed-Upon Procedures for Corporation          10             0             39
                            Grants Awarded to the University of
                            Maryland Center on Aging
       10-06    10/08/09    Audit of the Learn and Serve America Grant       1             0              0
                            Awarded to the American Association of
                            Community Colleges
       10-07    03/09/10    Audit of Corporation for National and            0             0             14
                            Community Service Grants Awarded to
                            Lutheran Community Services Northwest
       10-08    03/24/10    Agreed-Upon Procedures for Corporation          193           193            37
                            Grants Awarded to the University of San
                            Francisco-School of Education
       10-09    03/16/10    Agreed-Upon Procedures Review of                33             0              6
                            Corporation Grants Awarded to Delaware
                            Commission on Community and Volunteer
                            Serv ice



                                              TOTAL                        $237          $193           $96

  Inspector General Act [5(a)(6)]




  22                                                           October 1, 2009 – March 31, 2010
                                                                                              Tables

III.          Reports With Questioned Costs


                                                                    Federal Costs

                    Report Category                    Number Questioned       Unsupported
                                                                    (Dollars in thousands)
       A. Reports for which no management decision       5          $1,076                   $916
          had been made by the commencement of
          the reporting period

       B. Reports issued during the reporting period     4            237                     193

   C. Total Reports (A + B)                              9           1,313                   1,109

   D. Reports for which a management decision            5           1,076                    916
      was made during the reporting period

          I. Value of disallowed costs                               1,013                    916

          II. Value of cos ts not disallowed                            63                        0

       E. Reports for which no management decision       4           $237                    $193
          had been made by the end of the reporting
          period (C minus D)

       F. Reports with questioned costs for which no     0              $0                        $0
          management decision was made within six
          months of issuance

  Inspector General Act [5(a)(8)]




  October 1, 2009 – March 31, 2010                                                           23
Tables

IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                     Report Category                   Number*       Dollar Value*
                                                                 (Dollars in thousands)
      A. Reports for which no management decision         4              $45,119
         had been made by the commencement of
         the reporting period

      B. Reports issued during the reporting period       4                $97

      C. Total Reports (A + B)                            8              $45,216

      D. Reports for which a management dec ision         4              $45,119
         was made during the reporting period

          i. Value of recommendations agreed to by                          $4
          management

          ii. Value of recommendations not agreed to                     $45,115
          by management

      E. Reports for which no management decision         4                $97
         had been made by the end of the reporting
         period

      F. Reports for which no management decision         0                 $0
         was made within six months of issuance




  *The Audit Section predominately performed cost-incurred and compliance audits that resulted in
  questioned costs and noncompliance findings. These types of audits typically do not lead to
  recommendations that funds be put to better use.
 Inspector General Act [5(a)(9)]




 24                                                           October 1, 2009 – March 31, 2010
                                                                                                 Tables

V.       Summary of Audits With Overdue Management Decisions



                                                    Federal    Mgmt.
     Report                                          Dollars  Decision Status as of
     Number                   Title                Questioned  Due*   March 31, 2010


                      None


                              Total                      $0


  *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
 management dec ision must be made within six months of the issuance of the final audit report and
 corrective actions must be completed within one year.
 Inspector General Act [5(a)(10)]




 October 1, 2009 – March 31, 2010                                                             25
Tables

VI.       Reports Described In Prior Semiannual Reports
          Without Final Action


      Report                                        Date         Final
      Number                       Title           Issued     Action Due
                                   None



 Inspector General Act [5(a)(3)]




 26                                        October 1, 2009 – March 31, 2010
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE

 OFFICE OF INSPECTOR GENERAL

                           Hotline

                                     We Want You to
                                     Report Fraud, Waste
                                     and Abuse!




                       All information is confidential.

                       You may remain anonymous.


            1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov


                                Or write:

                          OIG HOTLINE
Corporation for National and Community Service
     1201 New York Avenue NW, Suite 830
             Washington, DC 20525
